March 30, 2007

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Steubenville – Youngstown, Ohio, Outgoing Mail
         Consolidation (Report Number NO-AR-07-003)

This report presents our audit results for the post-implementation review (PIR) of the
Steubenville Main Post Office (MPO) – Youngstown Processing and Distribution Facility
(P&DF) outgoing mail consolidation (Project Number 06XG017NO000). Our primary
objective was to determine if the consolidation resulted in projected savings, improved
service performance, and enhanced operational efficiency. This audit was self-initiated
and conducted in cooperation with Postal Service officials.

We concluded that consolidating the Steubenville MPO outgoing mail processing
operations into the Youngstown P&DF achieved the desired results. The workhour and
transportation cost analyses included in the PIR showed the Postal Service achieved
projected savings. Our analysis provided confirming evidence for cost savings,
improved service performance, and increased productivity. However, management did
not always comply with the processes outlined in Handbook PO-408, Area Mail
Processing (AMP) Guidelines, dated May 1995. We found discrepancies with approval
of the AMP proposal, the data used to support the AMP proposal, the timing of the PIR,
and the data used to support the PIR. Management has ongoing actions to address
AMP policy issues based on prior audit recommendations.

In this report, we recommended management conduct training on AMP policy after
updating Handbook PO-408. Management concurred with our recommendation and
has initiatives planned addressing the issues in this report. Management’s comments
and our evaluation of these comments are included in the report. The OIG considers
recommendation 1 significant, and therefore requires OIG concurrence before closure.
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Robert J. Batta, Director, Network Processing, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Wenhaw Spencer Hsu
    David E. Williams
    John O. Upthegrove
    Anita L. Petrella
    Deborah A. Kendall
Steubenville – Youngstown                                                 NO-AR-07-003
 Outgoing Mail Consolidation


                               TABLE OF CONTENTS
   Executive Summary                                                                i

   Part I

   Introduction                                                                    1

       Background                                                                  1
       Objective, Scope, and Methodology                                           2
       Prior Audit Coverage                                                        3

   Part II

   Audit Results

       Assessment of Consolidating the Steubenville Main Post Office’s             4
       Outgoing Mail Processing Operations
        Area Mail Processing Savings Realized                                      4
        Improved Service Performance                                               5
        Improved Mail Processing Productivity                                      6

       Compliance with Area Mail Processing Guidance                               7
        Postal Service Actions                                                     9
       Recommendation                                                              9
       Management’s Comments
       Evaluation of Management’s Comments                                         9
                                                                                   9
   Appendix A. Eastern Area Map                                                   10

   Appendix B. Prior Audit Coverage                                               11

   Appendix C. Craft and Maintenance Workhour Savings                             13

   Appendix D. Steubenville Main Post Office Failed Mailpieces By Month           14

   Appendix E. Youngstown Processing and Distribution Facility Planet             15
               Code Scans From May 4 through June 4, 2004, and
               June 14 through July 13, 2004

   Appendix F. Youngstown Processing and Distribution Facility External           16
               First-Class Service Overnight and 2 & 3 Day Performance
               Compared to the National Average
Steubenville – Youngstown, Ohio,                                            NO-AR-07-003
 Outgoing Mail Consolidation




   Appendix G. Steubenville Main Post Office and Youngstown Processing              17
               and Distribution Facility Cost Per 1,000 Pieces Comparison

   Appendix H. Management’s Comments                                                18
Steubenville – Youngstown, Ohio,                                                                NO-AR-07-003
 Outgoing Mail Consolidation




                                     EXECUTIVE SUMMARY

    Introduction                 The U.S. Postal Service Office of Inspector General
                                 reviewed the Area Mail Processing (AMP) consolidation of
                                 outgoing mail processing operations at the Steubenville,
                                 Ohio Main Post Office (MPO) into the Youngstown, Ohio
                                 Processing and Distribution Facility (P&DF). Our primary
                                 objective was to determine if the consolidation resulted in
                                 projected savings, improved service performance, and
                                 enhanced operational efficiency. This audit was self-
                                 initiated and conducted in cooperation with U.S. Postal
                                 Service officials.

    Results in Brief             The consolidation of outgoing mail processing operations at
                                 the Steubenville MPO achieved desired results. The
                                 workhour and transportation cost analyses included in the
                                 post-implementation review (PIR) showed the Postal
                                 Service achieved projected savings. Our additional
                                 analyses provided confirming evidence for cost savings,
                                 improved service performance, and increased productivity.
                                 Specifically, management:

                                      •   Reduced 22,103 workhours at the two facilities,
                                          resulting in savings of over $849,000 the first year
                                          after implementation.

                                      •   Improved service performance as measured by
                                          independent contractors and internal Postal Service
                                          testing.

                                      •   Improved productivity by 71 percent at the
                                          Steubenville MPO, and 43 percent at the
                                          Youngstown P&DF.

                                   Management did not always comply with the processes
                                   outlined in Handbook PO-408.1 We found discrepancies
                                   with the approval of the AMP proposal, the data used to
                                   support the AMP proposal, the timing of the PIR, and the
                                   data used to support the PIR.

1
 Handbook PO-408, Area Mail Processing Guidelines, dated May 1995, provides a framework for consolidating
operations in the mail processing network and requires a semi-annual and annual PIR be conducted on each AMP
consolidation.




                                                     i
Steubenville – Youngstown, Ohio,                                                               NO-AR-07-003
 Outgoing Mail Consolidation



                                   Several factors contributed to the discrepancies in the AMP
                                   proposal and PIR. First, the AMP process was unfamiliar
                                   to local management and employees. The AMP guidance
                                   did not clearly identify sources and the methodology for
                                   completing worksheets, including service standard
                                   changes. Lastly, although AMP guidance required reviews
                                   of the proposal at various management levels, the reviews
                                   did not identify these discrepancies.

                                   Following AMP processes (which include conducting timely
                                   PIRs) is important for supporting management decisions,
                                   ensuring management accountability for making decisions,
                                   and strengthening stakeholders’ confidence that decisions
                                   are appropriate.

    Postal Service Actions       Management has developed tools to improve oversight of
                                 AMPs and PIRs. In addition, they are revising AMP policy
                                 and expect to have a draft completed in fiscal year 2007.
                                 These on-going and planned management actions are
                                 based on prior audit report recommendations.2 Therefore,
                                 this report does not include any additional recommendations
                                 related to AMP policies.

    Summary of                   We recommended the Vice President, Eastern Area, in
    Recommendation               conjunction with the Vice President, Network Operations,
                                 conduct training on AMP policy after completion of the
                                 update to Handbook PO-408.

    Summary of                   Management concurred with our finding and
    Management’s                 recommendation. Management indicated they will provide
    Comments                     additional training on the AMP guidelines both at the area
                                 and Performance Cluster level. Management’s comments,
                                 in their entirety, are included in Appendix H.

    Overall Evaluation of        Management’s comments are responsive to the finding and
    Management’s                 recommendation. Management’s actions taken or planned
    Comments                     should correct the issues identified in the report.

2
 We are not making a recommendation on AMP policy since these control weaknesses were identified in previous
audit reports and management‘s actions should address these issues. In our report titled Area Mail Processing
Guidelines (Report Number NO-AR-06-001, dated December 15, 2005), we recommended management ensure PIRs
are conducted according to established guidance. In our report titled Pasadena, California, Processing and
Distribution Center Consolidation (Report Number EN-AR-06-001, dated September 26, 2006), we recommended
management revise AMP policy for documenting service standard changes and establish requirements for reviewing
AMP proposals at local and area levels.




                                                    ii
 Steubenville – Youngstown, Ohio,                                                                                                    NO-AR-07-003
  Outgoing Mail Consolidation



                                                                      INTRODUCTION
Background                                            The U.S. Postal Service continues to right-size its domestic
                                                      network in response to declining First-Class Mail® (FCM)
                                                      volume, increasing competition to traditional mail products
                                                      from the private sector, increasing automation and mail
                                                      processing by mailers, and shifting population
                                                      demographics. Despite a recent increase in mail volume,
                                                      the aggregate volume of FCM declined by 5 percent (or 5.5
                                                      billion pieces) from fiscal years (FY) 2001 to 2006. In
                                                      addition, the Postal Service projects FCM volume
                                                      will continue to decline. Figure 1 shows these trends.


                                              FIQURE 1: FIRST-CLASS ACTUAL (2001-2006) AND
                                                   PROJECTED (2007-2010) MAIL VOLUME
                            120



                            100
       Pieces in Billions




                             80



                             60



                             40



                             20



                             0
                                  FY 2001   FY 2002   FY 2003   FY 2004   FY 2005       FY 2006   FY 2007   FY 2008   FY 2009   FY 2010

                                                                             Fiscal Years




                                                      The Transformation Plan states the Postal Service is
                                                      committed to improving its operational efficiency by
                                                      consolidating mail processing operations, when feasible. In
                                                      addition, the President’s Commission3 found the Postal
                                                      Service had more facilities than needed and recommended
                                                      optimizing the facility network by closing and consolidating
                                                      unneeded processing centers.

                                                      The Postal Service uses the Area Mail Processing (AMP)
                                                      process to consolidate mail processing functions and to
                                                      eliminate excess capacity, increase efficiency, and better use
                                                      resources. The Postal Service defines AMP as




 3
     The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.
                                                                                    1
  Steubenville – Youngstown, Ohio,                                                       NO-AR-07-003
   Outgoing Mail Consolidation



                                     . . . the consolidation of all originating and/or
                                     destinating distribution operations from one or
                                     more post offices into another automated or
                                     mechanized facility to improve operational
                                     efficiency and/or service.

                             A post-implementation review (PIR) ensures management’s
                             accountability for implementing an AMP proposal. A PIR
                             facilitates:

                                 •    Comparing projected to actual results.
                                 •    Ensuring accountability for decision making.
                                 •    Meeting corporate/local goals and objectives.

                             The consolidation of outgoing mail processing operations at
                             the Steubenville Main Post Office (MPO) into the Youngstown
                             Processing and Distribution Facility (P&DF) was approved on
                             February 26, 2004, and implemented on March 1, 2004.

Objective, Scope, and        The U. S. Postal Service Office of Inspector General (OIG)
Methodology                  reviewed the AMP consolidation of outgoing mail processing
                             operations at the Steubenville MPO. Our primary objective
                             was to determine if the consolidation resulted in projected
                             savings, improved service performance, and enhanced
                             operational efficiency. We also reviewed compliance with
                             Handbook PO-408, Area Mail Processing (AMP) Guidelines;
                             and performed analyses of mail volume, workhours, cost and
                             efficiency for each facility and other analytical procedures as
                             necessary.

                             We relied on Postal Service data systems, including the
                             Breakthrough Productivity Initiative (BPI) website, Activity
                             Based Costing System, the Management Operating Data
                             System, the Web Enterprise Information System, Web
                             Complement Information Systems, Origin Destination
                             Information System, and the Enterprise Data Warehouse to
                             analyze mail volume, complement, efficiency and workhours.
                             We also checked the accuracy of data by confirming our
                             analyses and results with Postal Service managers.

                             We conducted this audit from February 2006 through March
                             2007 in accordance with generally accepted government
                             auditing standards and included such tests of internal




                                                  2
  Steubenville – Youngstown, Ohio,                                                NO-AR-07-003
   Outgoing Mail Consolidation



                             controls as we considered necessary under the
                             circumstances. We discussed our observations and
                             conclusions with management officials on December 19,
                             2006 and included their comments where appropriate.

Prior Audit Coverage         We issued five prior related reports: one on the AMP
                             Guidelines, two on the efficiency of mail processing
                             operations at facilities being considered for AMP
                             consolidations (the Mansfield, Ohio MPO and the Canton,
                             Ohio Processing & Distribution Center), and three on the
                             justification and impact of AMP consolidations (the Pasadena,
                             California; Bridgeport, Connecticut; and Sioux City, Iowa
                             facilities). For details of prior audit coverage, see Appendix
                             B.




                                               3
Steubenville – Youngstown, Ohio,                                                                   NO-AR-07-003
 Outgoing Mail Consolidation


                                           AUDIT RESULTS
Assessment of                   The consolidation of outgoing mail processing operations
Consolidating the               at the Steubenville MPO into the Youngstown P&DF
Steubenville Main               achieved desired results. The workhour and transportation
Post Office’s                   cost analyses included in the PIR showed the Postal
Outgoing Mail                   Service achieved projected savings. Our additional
Processing                      analyses of costs, service performance, and productivity
Operations                      provided confirming evidence for the consolidation.

                                39 U.S.C. Chapter 4, § 403 (a) states, “The Postal Service
                                shall plan, develop, promote, and provide adequate and
                                efficient postal services . . . .” Handbook PO-408 also sets
                                guidelines for consolidating mail processing operations
                                and conducting PIRs.4

                                The consolidation enabled management to improve use of
                                available resources. Specifically, the consolidation
                                reduced costs, improved service performance, and
                                increased productivity after the consolidation.

Area Mail Processing            The PIR showed the Postal Service achieved projected
Savings Realized                savings from the AMP consolidation and our cost analyses
                                provided confirming evidence. However, the cost savings
                                in the PIR appeared overstated.5

                                    •   The AMP proposal projected a reduction of 20,871
                                        workhours at the Steubenville MPO and an increase
                                        of 6,267 workhours at the Youngstown P&DF.
                                        Management projected these workhour reductions
                                        to save $365,113 annually.

                                    •   The PIR showed reductions of 20,752 workhours at
                                        the Steubenville MPO and 62,084 workhours at the
                                        Youngstown P&DF. Management incorrectly
                                        projected these workhour reductions saved
                                        $2,436,032 annually. The accuracy of the PIR
                                        savings is discussed later in this report.

                                    •   Our analysis showed a reduction of 28,712
                                        workhours at the Steubenville MPO and an increase
                                        of 6,609 mail processing workhours at the


4
  Handbook PO-408, Area Mail Processing Guidelines, provides a framework for consolidating operations in the mail
processing network. This national policy was issued by Postal Service Headquarters. It states that changes should
support the Postal Service’s strategic objectives, make optimum use of available resources, and establish
management’s accountability for making decisions.
5
  The overstated cost savings in the PIR are further discussed later in the report.
                                                      4
Steubenville – Youngstown, Ohio,                                                                     NO-AR-07-003
 Outgoing Mail Consolidation


                                         Youngstown P&DF from FYs 2003 to 2005.6 Our
                                         analysis indicated that the net workhour savings
                                         equates to $849,720 annually. (See Appendix C for
                                         our detailed workhour savings analysis.)

Improved Service                Delivery service for FCM and Priority Mail® improved after
Performance                     the consolidation. This consolidation resulted in 35 service
                                upgrades and 14 downgrades in FCM and Priority Mail
                                between three-digit ZIP Code origin and destination pairs.
                                In addition, we found the Postal Service was meeting
                                these service standards. For example:

                                     •   From March 2004 (the consolidation implementation
                                         date) to May 2004, there was a 41 percent
                                         decrease in the average number of Steubenville
                                         MPO failed mailpieces7 when compared to the 4-
                                         month period before consolidation. This reduction
                                         in failures represents an improvement in delivery
                                         service since employees delivered more FCM on-
                                         time. Appendix D depicts the Steubenville MPO
                                         failed mailpieces by month from October 2003 to
                                         May 2004.

                                     •   Internal Postal Service testing conducted after the
                                         consolidation showed 99 percent of FCM met
                                         service standards. (See Appendix E for detailed
                                         results.)

                                     •   The Youngstown P&DF remained a good service
                                         performer based on scores from the External First-
                                         Class Measurement (EXFC) system,8 although
                                         volume increased. Appendix F shows the
                                         Youngstown P&DF overnight, 2- and 3-day
                                         composite performance scores from Quarter 1, FY
                                         2004 through Quarter 2, FY 2006. (The
                                         Steubenville MPO was not subject to EXFC testing,
                                         primarily due to its low mail processing volume.)




6
  OIG analysis focused on workhours associated with outgoing operations at the Steubenville MPO and did not
include workhour reductions at the Youngstown P&DF.
7
  Mailpieces recorded in the Origin Destination Information System that did not meet overnight delivery standards.
8
  EXFC is a system whereby a contractor performs independent service performance tests of certain types of FCM
including letters, flats, and postcards.
                                                       5
Steubenville – Youngstown, Ohio,                                                   NO-AR-07-003
 Outgoing Mail Consolidation




Improved Mail               We determined the consolidation of the Steubenville MPO
Processing                  outgoing mail processing into the Youngstown P&DF
Productivity                contributed to improved productivity at both facilities.

                                   •   In FY 2003, before the consolidation, the
                                       Steubenville MPO achieved 44 percent of its BPI
                                       target productivity goal and processed 1,638 pieces
                                       of mail per workhour. In FY 2005, after the
                                       consolidation, the Steubenville MPO achieved 53
                                       percent of its BPI target productivity goal and
                                       processed 2,805 mailpieces per workhour. This
                                       improvement in Steubenville MPO’s productivity
                                       represented a 71 percent increase in the number of
                                       mailpieces processed per workhour.

                                   •   In FY 2003, the Youngstown P&DF achieved 50
                                       percent of its BPI target productivity goal and
                                       processed 2,127 mailpieces per workhour. In FY
                                       2005, after the consolidation, the Youngstown
                                       P&DF achieved 80 percent of its BPI target
                                       productivity goal and processed 3,049 mailpieces
                                       per workhour. This improvement in the
                                       Youngstown P&DF productivity represented a 43
                                       percent increase in the number of mailpieces
                                       processed per workhour.

                            Processing mail at the Youngstown P&DF was also less
                            expensive compared to processing mail at the Steubenville
                            MPO. From October 2003 to September 2005, the
                            average mail processing cost per 1,000 mailpieces at the
                            Steubenville MPO was $110.29 compared to $63.71 at
                            Youngstown P&DF. This cost difference of nearly 58
                            percent reflects the ability of the Youngstown P&DF to
                            process mail more efficiently. Appendix G shows the cost
                            to process mail from October 2003 to September 2005.




                                                6
Steubenville – Youngstown, Ohio,                                                                      NO-AR-07-003
 Outgoing Mail Consolidation




Compliance with                Management did not always comply with the processes
Area Mail                      outlined in Handbook PO-408. We found discrepancies with
Processing                     the approval of the AMP proposal, the data used to support
Guidance                       the consolidation, the timing of the PIR, and the data used to
                               support the PIR.

                               AMP Approval: We could not determine the specific date
                               management approved the AMP proposal at various levels
                               because the signature page was not completed. Handbook
                               PO-408 requires management to document approval of the
                               AMP proposal on Worksheet 1.

                               Accuracy of AMP data: We identified the following
                               inaccuracies in the AMP data used to support the
                               consolidation proposal:

                                    •    The AMP proposal did not list operation numbers at
                                         the Youngstown P&DF, which made a detailed
                                         analysis of workhour savings difficult. Handbook PO-
                                         408 requires proposals to list operation numbers for
                                         mail volume and workhours that will be received from
                                         the consolidated office.

                                    •    The AMP proposal included operation numbers for
                                         incoming operations at Steubenville MPO that should
                                         not have been included on Worksheet 4.

                                    •    The AMP proposal did not accurately document
                                         projected service standard changes. Handbook PO-
                                         408 requires management to document all upgrades
                                         and downgrades to FCM and Priority Mail on
                                         Worksheets 7 and 7a. Table 1 compares service
                                         standard changes identified in the AMP proposal, the
                                         PIR, and the OIG analysis.9


                                                        Table 1: Service Impact
                                                                              Post Implementation
                                                               Original AMP          Review         OIG Analysis
                               First Class Mail
                                            upgrades                0                 5                 15
                                           downgrades               8                 8                  7
                               Priority
                                            upgrades                0                 5                 20
                                           downgrades               0                 8                  7



9
  We completed the service analysis with Postal Service officials using the Service Standard Directory, which
contains service standards between three-digit ZIP Code origin and destination pairs.
                                                         7
Steubenville – Youngstown, Ohio,                                                NO-AR-07-003
 Outgoing Mail Consolidation



                           Timing of PIR: Management did not complete the semiannual
                           review and the annual review was initiated approximately 6
                           months after the required date. Handbook PO-408 requires
                           two PIRs for each AMP, one approximately 6 months after
                           implementation and the second 1 year after implementation.

                           Accuracy of PIR data: The PIR included workhour reductions
                           at the Youngstown P&DF that were not directly attributed to
                           the AMP consolidation. These workhour reductions resulted
                           in savings of over $1.5 million and including them in the PIR
                           overstated savings from the consolidation.

                           Several factors contributed to the discrepancies in the AMP
                           proposal and PIR.

                               •   Although the AMP process has been in use for over 30
                                   years, there has been limited use of the process over
                                   the last few years. As a result, the process was
                                   unfamiliar to local management and employees.

                               •   The AMP guidance did not clearly identify sources and
                                   the methodology for completing worksheets, including
                                   service standard changes.

                               •   Although AMP policy requires review of the proposal at
                                   various management levels, the reviews did not
                                   identify these discrepancies.

                           Following AMP processes (which include conducting timely
                           PIRs) is important for supporting management decisions,
                           ensuring management accountability for making decisions,
                           and strengthening stakeholder confidence that decisions are
                           appropriate.




                                              8
Steubenville – Youngstown, Ohio,                                                NO-AR-07-003
 Outgoing Mail Consolidation



Postal Service             Management has developed tools to improve the oversight of
Actions                    AMPs and PIRs. In addition, they are revising AMP policy
                           and expect to complete a draft in FY 2007. These on-going
                           and planned management actions are based on prior audit
                           report recommendations.2 Therefore, this report does not
                           include any additional recommendations related to AMP
                           policies.

Recommendation             We recommend the Vice President, Eastern Area, in
                           conjunction with the Vice President, Network Operations:

                           1. Conduct training sessions on Area Mail Processing policy
                              after the completion of the update to Handbook PO-408.

Management’s               Management concurred with our finding and
Comments                   recommendation. Management indicated they will provide
                           additional training on the AMP guidelines both at the Area
                           and Performance Cluster level.

Evaluation of              Management’s comments are responsive to the audit finding
Management’s               and recommendation. Management’s actions taken or
Comments                   planned should correct the issues identified in the report.




                                             9
Steubenville – Youngstown, Ohio,                      NO-AR-07-003
 Outgoing Mail Consolidation


                                      APPENDIX A

                                   EASTERN AREA MAP




                                         10
Steubenville – Youngstown, Ohio,                                            NO-AR-07-003
 Outgoing Mail Consolidation


                                        APPENDIX B

                                   PRIOR AUDIT COVERAGE
The OIG report titled Area Mail Processing Guidelines (Report Number NO-AR-06-001,
dated December 21, 2005) found the AMP process was fundamentally sound, appeared
credible, and provided a PIR process to assess results from mail processing
consolidations. However, management of the AMP process and guidance could be
improved. AMPs were not processed or approved in a timely manner, PIRs were not
always conducted, and stakeholders’ resistance affected the approval process. The
report recommended the Postal Service update AMP guidance, comply with policy, and
address stakeholder resistance. Management agreed with the findings and
recommendations.

The OIG report titled Efficiency Review of the Mansfield, Ohio, Main Post Office (Report
Number NO-AR-05-004, dated December 8, 2004) found the Postal Service could
increase operational efficiency at the Mansfield MPO by reducing 24,000 mail
processing workhours, which would allow the facility to achieve 90 percent of targeted
goals. This reduction was based on the assumption that mail volume will not
significantly change from FY 2003 levels and could produce a cost avoidance of
approximately $7.6 million based on labor savings over 10 years. We recommended
the Manager, Northern Ohio District, reduce mail processing operations at the Mansfield
MPO by 52,000 workhours based on FY 2003 workhour usage. We also recommended
consolidating outgoing mail operations into the Akron P&DC, as the Eastern Area AMP
study recommended. Management agreed and the actions planned were responsive to
the issues identified.

The OIG report titled Efficiency Review of the Canton, Ohio, Processing and Distribution
Facility (Report Number NO-AR-05-013, dated September 22, 2005) found the Postal
Service could increase operational efficiency at the Canton P&DF by reducing mail
processing workhours by 202,000. This reduction was based on the assumption that
mail volume will not significantly change from FY 2004 levels and could produce a cost
avoidance of approximately $64 million based on labor savings over 10 years. We
recommended the Manager, Northern Ohio District, reduce mail processing operations
at the Canton P&DF by 93,000 workhours based on FY 2004 workhour usage. We also
recommended consolidating outgoing mail operations into the Akron P&DC, thereby
saving an additional 109,000 workhours. Management agreed and the actions planned
were responsive to the issues identified.

The OIG report titled Pasadena, California, Processing and Distribution Center
Consolidation (Report Number EN-AR-06-001, dated September 26, 2006) found the
workhour cost analysis included in the AMP proposal was supported and additional OIG
analyses provided confirming evidence for the consolidation. However, in the
development, approval, and implementation of the Pasadena AMP proposal,
management did not always comply with the processes outlined in policy and some
AMP proposal data was inaccurate, incomplete, or unsupported. The OIG
recommended management revise the Pasadena AMP proposal to document all service
                                           11
Steubenville – Youngstown, Ohio,                                            NO-AR-07-003
 Outgoing Mail Consolidation


standard changes and transportation costs. Additionally, we recommended that
management establish central files for approved AMP proposals and supporting
documentation to facilitate PIRs. Finally, we recommended management update AMP
policy. Management generally agreed with our recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report.

The OIG report titled Bridgeport, Connecticut, Processing and Distribution Facility
Outgoing Mail Consolidation (Report Number NO-AR-06-010, dated September 30,
2006) found the Postal Service was justified in moving outgoing mail processing
operations from the Bridgeport P&DF to the Stamford, Connecticut P&DC. We
concluded the consolidation should have minimal impact on employees, make use of
excess mail processing capacity, reduce labor costs, increase processing efficiency,
and potentially improve delivery service. We further determined that transportation
costs may increase slightly but the consolidation will allow expansion of Bridgeport
P&DF carrier operations. The Postal Service implemented this consolidation during our
audit. Consequently, we did not make recommendations pertaining to the consolidation
itself, since our assessment supported management’s actions. However, we identified
some weaknesses in management controls over the processing and approval of the
AMP proposal and recommended that Postal Service maintain supporting
documentation and use current data for future AMP proposals. Management agreed
with our recommendations and has initiatives in progress, completed, or planned
addressing the issues in this report.

The OIG report titled Sioux City, Iowa, Processing and Distribution Facility
Consolidation (Report Number EN-AR-07-001, dated November 9, 2006) found the
Postal Service provided adequate support for its analyses of workhours, transportation,
and facility costs in the AMP proposal, and our additional analyses provided confirming
evidence for the consolidation. Management generally complied with AMP guidance
and maintained supporting documentation. However, we identified some
inconsistencies in AMP proposal data, and inaccurate information may have been
shared with stakeholders. Management agreed with our recommendations and has
initiatives in progress, completed, or planned addressing the issues in this report.




                                         12
Steubenville – Youngstown, Ohio,                                                        NO-AR-07-003
 Outgoing Mail Consolidation


                                       APPENDIX C

             CRAFT AND MAINTENANCE WORKHOUR SAVINGS

                       Facility                    Craft *             Maintenance
       Steubenville MPO
                  Fiscal Year 2003                30,229                    10,164
                  Fiscal Year 2005                 3,854                    7,827
                                  Difference      (26,375)                  (2,337)

       Youngstown P&DF
                Fiscal Year 2003                  56,723                    51,622
                Fiscal Year 2005                  63,332                    49,129
                                Difference         6,609                   (2,493) **

               Net Change in Hours                (19,766)                   (2,337)
             Times Fully Loaded Rate               $37.62                    $45.41
                 Equals Savings                  ($743,597)                ($106,123)
                   Total Savings                              ($849,720)

       * Workhours associated with performing outgoing operation activities
       ** Workhour savings at Youngstown P&DF were not directly associated with
         the consolidation and therefore were not included in the total
         savings calculation.




                                           13
Steubenville – Youngstown, Ohio,                                                                               NO-AR-07-003
 Outgoing Mail Consolidation


                                                           APPENDIX D

                                        STEUBENVILLE MAIN POST OFFICE
                                         FAILED MAILPIECES BY MONTH

                       50


                       45
                                                                                    Feb
                                                                   Jan
                       40
                                Oct


                       35                                                          Consolidation Date with Youngstown, Ohio
  # of Failed Pieces




                       30
                                                                                                  Mar
                       25
                                            Nov                                                                  Apr


                       20


                       15                                                                                                         May

                       10


                       5


                       0
                            Oct-03      Nov-03    Dec-03       Jan-04           Feb-04        Mar-04         Apr-04           May-04
                                                                        Month




                                 Source: Origin Destination Information System June 04, 2004




                                                              14
Steubenville – Youngstown, Ohio,                                            NO-AR-07-003
 Outgoing Mail Consolidation


                                     APPENDIX E

YOUNGSTOWN PROCESSING AND DISTRIBUTION FACILITY PLANET
                    CODE SCANS
    (FROM MAY 4 THROUGH JUNE 4, 2004, AND JUNE 14 THRU JULY 13, 2004)

                                          Score        Total       On
     Facility                  Zip Code (Percent)     Pieces      Time Failed
 Steubenville MPO                 439     98.98           490       485  5
 Youngstown P&DF                  444     98.77            81        80  1
 Youngstown P&DF                  445     99.75           805       803  2
      Total                               99.42         1,376     1,368  8

Note: This chart shows that delivery service scores exceeded the national service goal
of 95 percent for the Youngstown P&DF and Steubenville MPO service area after
consolidating the Steubenville MPO outbound mail on March 1, 2004.

*PLANET CODES are used to track letter sized mailpieces electronically.

Source: Planet Code Coordinator, Youngstown P&DF




                                         15
Steubenville – Youngstown, Ohio,                                                                                          NO-AR-07-003
 Outgoing Mail Consolidation


                                                       APPENDIX F

     YOUNGSTOWN PROCESSING AND DISTRIBUTION FACILITY
   EXTERNAL FIRST-CLASS SERVICE OVERNIGHT AND 2- & 3-DAY
     PERFORMANCE COMPARED TO THE NATIONAL AVERAGE

                   (QUARTER 1, FY 2004 THROUGH QUARTER 2, FY 2006)



                            Overnight Composite
                  Youngstown - - -           National
      100

       98

       96

       94

       92

       90

       88
             Before Consolidation
       86

       84

       82
             Q1 FY2004   Q2 FY2004   Q3 FY2004   Q4 FY2004   Q1 FY2005   Q2 FY2005 Q3 FY2005     Q4 FY2005   Q1 FY2006   Q2 FY2006




                           2- & 3- Day Composite
                 Youngstown - - -            National
      94

      92

      90

      88

      86
            Before Consolidation
      84

      82

      80

      78

      76
            Q1 FY2004    Q2 FY2004   Q3 FY2004   Q4 FY2004   Q1 FY2005   Q2 FY2005   Q3 FY2005   Q4 FY2005   Q1 FY2006   Q2 FY2006


                                         Source: Web Enterprise Information System


                                                                16
 Steubenville – Youngstown, Ohio,                                                                                                                                                                      NO-AR-07-003
  Outgoing Mail Consolidation


                                                                                           APPENDIX G

              STEUBENVILLE MAIN POST OFFICE AND YOUNGSTOWN
                   PROCESSING AND DISTRIBUTION FACILITY
                     COST PER 1,000 PIECES COMPARISON
                       (Based on First Handling Pieces)
$160.00


$140.00


$120.00


$100.00


 $80.00


 $60.00


 $40.00


 $20.00


  $0.00
          OCT-03



                            DEC-03




                                                                                  JUN-04




                                                                                                                      OCT-04



                                                                                                                                        DEC-04




                                                                                                                                                                                              JUN-05
                                              FEB-04




                                                                                           JUL-04



                                                                                                             SEP-04




                                                                                                                                                          FEB-05




                                                                                                                                                                                                        JUL-05



                                                                                                                                                                                                                          SEP-05
                   NOV-03



                                     JAN-04



                                                       MAR-04

                                                                APR-04




                                                                                                    AUG-04




                                                                                                                               NOV-04



                                                                                                                                                 JAN-05



                                                                                                                                                                   MAR-05

                                                                                                                                                                            APR-05




                                                                                                                                                                                                                 AUG-05
                                                                         MAY-04




                                                                                                                                                                                     MAY-05
                                                                                     Youngstow n OH                      Steubenville OH



                            Mail processing cost per 1,000 pieces ranged from $89.34 to $143.47 at
                            Steubenville MPO with an average cost during the period of $110.29.

                            Mail processing cost per 1,000 pieces ranged from $56.74 to $68.02 at
                            Youngstown P&DF with an average cost during the period of $63.71.

                            Source: Activity Based Costing System




                                                                                                      17
Steubenville – Youngstown, Ohio,                NO-AR-07-003
 Outgoing Mail Consolidation


                                   APPENDIX H

                     MANAGEMENT’S COMMENTS




                                          18
